<html>
<title> - RESOURCING DHS'S CYBERSECURITY AND INNOVATION MISSIONS: A REVIEW OF THE FISCAL YEAR 2021 BUDGET REQUEST FOR THE CYBERSECURITY AND INFRASTRUCTURE SECURITY AGENCY AND THE SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


RESOURCING DHS'S CYBERSECURITY AND INNOVATION MISSIONS: A REVIEW OF THE 
       FISCAL YEAR 2021 BUDGET REQUEST FOR THE CYBERSECURITY AND 
     INFRASTRUCTURE SECURITY AGENCY AND THE SCIENCE AND TECHNOLOGY 
                              DIRECTORATE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                       PROTECTION, AND INNOVATION
                       
                                OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

                           Serial No. 116-68

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                              

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-345 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, Texas
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 
                                 ------                                

     SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND 
                               INNOVATION

                Cedric L. Richmond, Louisiana, Chairman
Sheila Jackson Lee, Texas            John Katko, New York, Ranking 
James R. Langevin, Rhode Island          Member
Kathleen M. Rice, New York           Mark Walker, North Carolina
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
               Moira Bergin, Subcommittee Staff Director
           Sarah Moxley, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Innovation:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6

                               Witnesses

Mr. Christopher C. Krebs, Director, Cybersecurity and 
  Infrastructure Security Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Andre Hentz, Acting Deputy Under Secretary for Science and 
  Technology, U.S. Department of Homeland Security:
  Oral Statement.................................................    13
Mr. William Bryan, Senior Official Performing the Duties of the 
  Under Secretary for Science and Technology Directorate, Science 
  and Technology Directorate, U.S. Department of Homeland 
  Security:
  Prepared Statement.............................................    14

                                Appendix

Questions From Hon. Sheila Jackson Lee for Christopher C. Krebs..    35

 
RESOURCING DHS'S CYBERSECURITY AND INNOVATION MISSIONS: A REVIEW OF THE 
       FISCAL YEAR 2021 BUDGET REQUEST FOR THE CYBERSECURITY AND 
     INFRASTRUCTURE SECURITY AGENCY AND THE SCIENCE AND TECHNOLOGY 
                              DIRECTORATE

                              ----------                              


                       Wednesday, March 11, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Cybersecurity, 
                                 Infrastructure Protection,
                                            and Innovation,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:05 a.m., in 
room 310, Cannon House Office Building, Hon. Cedric L. Richmond 
[Chairman of the subcommittee] presiding.
    Present: Representatives Richmond, Thompson, Jackson Lee, 
Langevin, Rice, Underwood, Slotkin; Katko, Rogers, Walker, 
Green, and Joyce.
    Mr. Richmond. Good morning. I would like to thank Director 
Krebs and Acting Deputy Under Secretary Hentz to discuss the 
fiscal year 2021 budget priorities for the Cybersecurity and 
Infrastructure Security Agency, CISA, and the Science and 
Technology Directorate, S&T.
    Before I begin I would like to commend my colleague, 
Congressman Jim Langevin, for his work on the Cyberspace 
Solarium Commission.
    The Solarium Commission's final report will be formally 
released hours from now, and I look forward to working with you 
and Chairman Thompson to codify important recommendations aimed 
at empowering CISA and better securing our elections.
    I understand Director Krebs was very engaged in the 
cyberspace solarium. Toward that end, I will be interested in 
knowing if the fiscal year 2021 budget request from CISA is 
sufficient to implement the recommendations aimed at increasing 
CISA's capacity and, if not, what additional resources will be 
necessary.
    At the outset I want to debunk the myth that the Federal 
agencies can do more with less. I support eliminating waste and 
increasing efficiency, but the fact is that with more you can 
do more.
    Technology is evolving and creating opportunities for our 
adversaries to hack critical infrastructure, disrupt our 
elections, and hold State and local government networks 
hostage. CISA must be equipped to be an effective Federal 
partner and S&T must be positioned to develop and identify 
technology to strengthen our defenses.
    The President's fiscal year 2021 budget fails to do either 
of those important components. Last year committee Democrats 
led a bipartisan letter to appropriators seeking additional 
funding for CISA's cybersecurity mission. Together we succeeded 
in increasing CISA's cyber budget by $350 million, accelerating 
efforts to secure Federal networks, and ramping up CISA's 
threat analysis and response capabilities for private-sector 
critical infrastructure owners and operators and State and 
local governments.
    Despite bipartisan support for an increase in CISA's 
cybersecurity budget, the President's budget cuts it by over 
$150 million. I don't understand how a cut of that magnitude 
makes communities trying to defend themselves against 
ransomware attacks, Federal networks, or critical lifeline 
services, from power to communications, any more secure.
    Director Krebs, you know your mission. I want to know what 
resources you need to do it.
    I would also like to express my concern about the 
administration's decision to eliminate the CFATS program. To 
the best of my knowledge, there is no intelligence that 
suggests that the security risk to chemical facilities has 
diminished. There is no evidence that a voluntary security 
framework will yield the same security results as a regulatory 
program. You can be certain that members of this committee will 
not allow CFATS to expire.
    I am also concerned about the administration's continued 
efforts to cut S&T. Last fall this committee held a hearing 
exploring the security threats posed by emerging technologies. 
Despite ample evidence that U.S. investment in research and 
development is lacking, this budget cuts research and 
development for cybersecurity, as well as important university 
programs and centers of excellence. We cannot afford to 
continue to defer investments in R&D, and I will work hard to 
restore funding.
    Before I close, I want to make clear my expectation that 
Members of this committee will receive accurate, candid 
intelligence about threats to our elections. Last month the 
intelligence community's assessment of whether the Russian 
Government's influence activities were intended to advance the 
President's re-election appeared to change overnight, because 
the President did not like the intelligence. As Members of 
Congress, we must have the information necessary to understand 
the threat and ensure you have budget and resources you need to 
defend against sophisticated cyber threats.
    With that, I thank the witnesses for being here, and I 
yield back the balance of my time.
    [The statement of Chairman Richmond follows:]
                Statement of Chairman Cedric L. Richmond
                             March 11, 2020
    The Solarium Commission's final report will be formally released 
hours from now, and I look forward to working with you and Chairman 
Thompson to codify important recommendations aimed at empowering CISA 
and better securing our elections. I understand Director Krebs was very 
engaged in the Cyberspace Solarium.
    Toward that end, I will be interested in knowing if the fiscal year 
2021 budget request for CISA is sufficient to implement the 
recommendations aimed at increasing CISA's capacity and, if not, what 
additional resources will be necessary. At the outset, I want to debunk 
the myth that Federal agencies can do more with less. I support 
eliminating waste and increasing efficiency, but the fact is that with 
more you can do more.
    Technology is evolving and creating opportunities for our 
adversaries to hack critical infrastructure, disrupt our elections, and 
hold State and local government networks hostage. CISA must be equipped 
to be an effective Federal partner and S&T must be positioned to 
develop and identify technology to strengthen our defenses. The 
President's fiscal year 2021 budget does fails both of these important 
components.
    Last year, Committee Democrats led a bipartisan letter to 
appropriators seeking additional funding for CISA's cybersecurity 
mission. Together, we succeeded in increasing CISA's cyber budget by 
$350 million, accelerating efforts to secure Federal networks and 
ramping up CISA's threat analysis and response capabilities for 
private-sector critical infrastructure owners and operators and State 
and local governments.
    Despite bipartisan support for increasing CISA's cybersecurity 
budget, the President's budget cuts it by about over $150 million. I 
don't understand how a cut of that magnitude makes communities trying 
to defend themselves against ransomware attacks, Federal networks, or 
critical lifeline services--from power to communications--any more 
secure.
    Director Krebs, you know your mission. I want to know what 
resources you need to do it. I would also like to express my concern 
about the administration's decision to eliminate the CFATS program.
    To the best of my knowledge, there is no intelligence that suggests 
that the security risks to chemical facilities has diminished. There is 
no evidence that a voluntary security framework will yield the same 
security results as a regulatory program.
    You can be certain the Members of this committee will not allow 
CFATS to expire. I am also concerned about the administration's 
continued efforts to cut S&T.
    Last fall, this committee held a hearing exploring the security 
threats posed by emerging technologies. Despite ample evidence that 
U.S. investment in research and development is lacking, this budget 
cuts R&D for cybersecurity as well as important University Programs and 
Centers of Excellence. We cannot afford to continue to defer 
investments in R&D, and I will work hard to restore funding.
    Before I close, I want to make clear my expectation that Members of 
this committee will receive accurate, candid intelligence about threats 
to our elections. Last month, the intelligence community's assessment 
of whether the Russian government's influence activities were intended 
to advance the President's re-election appeared to change overnight 
because the President did not like the intelligence.
    As Members of Congress, we must have the information necessary to 
understand the threat and ensure you have budget and resources you need 
to defend against sophisticated cyber threats.

    Mr. Richmond. I would recognize the Ranking Member of the 
committee, Mr. Katko, for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman.
    Thank you, Mr. Krebs, for being here. Thank you also for 
participating yesterday in the election security briefing. It 
was very helpful and informative and, as always, your input was 
well received.
    I want to echo the sentiments of my colleague, the 
Chairman, about the cyber solarium and the work that has been 
done on it. I know you were an integral part of that, and I 
know Mr. Langevin has, as well. I look forward to a bipartisan 
effort implementing as many, if not all, of his policies into 
law and--on the Homeland side. Working closely with both sides 
now to get that done is, I think, critical.
    Our Nation faces digital and physical threats daily that 
have the potential to disrupt, damage, and destroy their 
targets. These threats will only grow in magnitude, frequency, 
and sophistication in years ahead, as you well know, as cyber 
adversaries, particularly nation-state actors, seek political, 
economic, and National security advantages.
    The Federal Government works with public and private-sector 
partners to prevent and deter current threats, but also to plan 
for the future. The Cybersecurity Infrastructure Security 
Agency Act, or CISA, was tasked by Congress in 2018 to serve as 
the Nation's risk advisor, providing for the timely sharing of 
information, analysis, and assessment, and facilitating 
resilience building and mitigation in the .gov domain, State 
and local governments, and the private sector across 
industries.
    Today we will take a closer look at CISA's plans and how 
they intend to carry out and achieve their mission. I must say 
I agree with Ms.--the chair. Cutting CISA's budget is not a 
really good idea at all. In fact, the opposite is true. We need 
to expand your resources so you can better handle the emerging 
threats.
    CISA is responsible for securing the civilian Federal 
networks, monitoring emerging threats across sectors 24/7/365, 
securing our Nation's chemical facilities, advising State and 
local governments on election security, partnering with the 
public and private sector to protect soft targets in crowded 
places, and identifying and addressing risks to our National 
critical functions.
    During the past year CISA completed its transition to a 
stand-alone agency subject to DHS oversight. I am very 
interested in hearing how strengthening CISA's authorities 
could further clarify civilian cybersecurity risk management 
authorities, and CISA's role as a convener of public-private 
partnerships.
    As we have spoken in private, and in my office, and 
elsewhere, I am very interested in you telling us what else you 
need, and you know we will respond if you tell us what you 
need. I encourage you not to be shy about it, Mr. Krebs.
    I look forward to hearing about CISA's plans to continue 
its progress securing our supply chain and tackling risk to our 
National critical functions and election infrastructure.
    Finally, I invite you to share insights on CISA's work with 
State and local governments to secure the 2020 elections from 
the hindsight of Super Tuesday and other election primaries.
    We will also hear from the Directorate of Science and 
Technology, or S&T, about how they plan to execute their 
mission in the year ahead. S&T, through partnerships with the 
Federal Government, academia, and industry, develops innovative 
solutions to aid the Department of Homeland Security in 
achieving its mission more effectively, efficiently, and 
affordably.
    I look forward to hearing from both of our witnesses and my 
colleagues to see how we can work together--and the keyword is 
``together''--to ensure DHS is capable of protecting our Nation 
from digital and physical threats. This is the inherently 
bipartisan effort we are all involved in, and we should proceed 
in that manner.
    With that I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you, Mr. Chairman, for holding this hearing, and thank you to 
our distinguished witnesses for being here today.
    Our Nation faces digital and physical threats daily that have the 
potential to disrupt, damage, and destroy their targets. These threats 
will only grow in magnitude, frequency, and sophistication in the years 
ahead as cyber adversaries particularly nation-state actors seek 
political, economic, and National security advantages.
    The Federal Government works with public and private-sector 
partners to prevent and deter current threats, but also to plan for the 
future.
    The Cybersecurity and Infrastructure Security Agency Act, or CISA, 
was tasked by Congress in 2018 to serve as the Nation's risk advisor, 
providing for the timely sharing of information, analysis, and 
assessment, and facilitating resilience building and mitigation in the 
.gov domain, State and local governments, and the private sector across 
industries.
    Today we will take a closer look at CISA's plans and how they 
intend to carry out and achieve their mission.
    CISA is responsible for: Securing the civilian Federal networks; 
monitoring emerging threats across sectors 24/7/365; securing our 
Nation's chemical facilities, advising State and local governments on 
election security; partnering with the public and private sector to 
protect soft targets and crowded places; and identifying and addressing 
risks to our National critical functions.
    During the past year CISA completed its transition to a stand-alone 
agency subject to DHS oversight. I am interested in hearing how 
strengthening CISA's authorities could further clarify civilian 
cybersecurity risk management authorities and CISA's role as a convener 
of public-private partnerships.
    I look forward to hearing about CISA's plans to continue its 
progress securing our supply chain and tackling risks to our National 
critical functions and election infrastructure.
    Finally, I invite Director Krebs to share his insights on CISA's 
work with State and local governments to secure 2020 elections from the 
hindsight of Super Tuesday and other election primaries.
    Today we also will hear from the Science & Technology Directorate, 
or S&T, about how they plan to execute their mission in the year ahead.
    S&T, through partnerships within the Federal Government, academia, 
and industry, develops innovative solutions to aid the Department of 
Homeland Security in achieving its mission more effectively, 
efficiently, and affordably.
    I look forward to hearing from both our witnesses and my colleagues 
to see how we can work together to ensure DHS is capable of protecting 
our Nation from digital and physical threats.

    Mr. Richmond. The gentleman from New York yields back. I 
now recognize the Ranking Member of the full committee to give 
an opening statement.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you for 
holding this important hearing. I want to thank the witnesses 
for being here, and taking the time to prepare for these 
hearings. I know it takes a lot of time, and that you have got 
other things to do, but we appreciate it. It is very helpful to 
us.
    Today's threats can be cyber, or physical, or man-made, or 
natural. They can emerge from nation-states, criminal 
organizations, or terrorists. Just in the last 2 months we have 
dealt with cyber threats from Russia and Iran, ransomware 
attacks and disinformation campaigns on social media. These are 
the threats we know about. Many more may be lurking on the 
networks.
    Unless we do something about it, these threats will only 
grow. CISA is the agency Congress created to do something about 
this. CISA's work is critical. That is why I was disappointed 
to see this year's budget request for the agency. I am very 
concerned that any cuts like this would undermine CISA's 
ability to successfully carry out its mission.
    But I do take comfort in knowing, from my 18 years here, 
that the President only proposes budgets; we write budgets. I 
can tell you these cuts are not going to take place.
    I look forward to hearing from Director Krebs on how he 
intends to mitigate the growing cybersecurity threats with a 
smaller budget, if that were to happen.
    I also look forward to hearing from S&T on the important 
work it is doing to develop new technologies to defend our 
homeland.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                             March 11, 2020
    Thank you, Mr. Chairman, for holding this hearing, and to our 
witnesses for being here today.
    Today's threats can be cyber or physical, manmade or natural. They 
can emerge from nation-states, criminal organizations, and terrorists.
    Just in the last 2 months, we've dealt with cyber threats from 
Russia and Iran, ransomware attacks, and disinformation campaigns on 
social media.
    These are the threats we know about. Many more may be lurking on 
our networks.
    Unless we do something about it, these threats will only grow.
    CISA is the agency Congress created to do something about it.
    CISA's work is critical.
    That's why I was disappointed to see this year's budget request for 
the agency.
    I'm very concerned these cuts will undermine CISA's ability to 
successfully carry out its critical mission.
    I look forward to hearing from Director Krebs on how he intends to 
mitigate growing cybersecurity threats with a smaller budget.
    I also look forward to hearing from S&T on the important works it's 
doing to develop new technologies to defend our homeland.

    Mr. Rogers. With that, Mr. Chairman, I yield back, and 
thank you.
    Mr. Richmond. The gentleman yields back.
    Other Members are reminded that statements may be submitted 
for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 11, 2020
    Around this time last year, this subcommittee held a hearing to 
discuss the fiscal year 2020 budget request.
    At the time, Acting Secretary McAleenan had just replaced Secretary 
Nielson amid a flurry of leadership changes throughout the Department 
of Homeland Security.
    Today you report to Acting Secretary Chad Wolf, the fifth person to 
serve as Secretary during this administration and the third to serve as 
Secretary since CISA became an operational component in November 2018. 
I have raised concerns about the lack of consistent leadership at the 
Department in the past, but I think it is particularly relevant in 
conversations about the future of CISA and S&T.
    Both CISA and S&T play critical roles in defending the homeland. 
CISA is charged with coordinating the Federal efforts to defend 
critical infrastructure against physical and cyber attacks and 
protecting the .gov. S&T is responsible for putting cutting-edge 
technologies into the hands of DHS's boots on the ground to enable the 
workforce to do their jobs better and safer.
    Despite their critical missions, neither of these agencies are 
without their challenges. CISA has been an operational component for 
less than 2 years.
    As foreign adversaries increasingly rely on cyber tools to 
undermine our democratic institutions, surveil critical infrastructure 
networks, and hold State and local government networks hostage, 
Congress and the public have demanded more of CISA. But Trump 
administration has never provided Congress with a candid assessment of 
how much funding is necessary for CISA to accommodate the increased 
demands for its services. The White House has been without a White 
House cybersecurity coordinator for nearly 2 years, leaving Federal 
agencies to coordinate cybersecurity activities amongst themselves.
    Although CISA's leadership has been steady and widely respected 
both within the Federal Government and among the private-sector 
stakeholder community, a strong, only a strong, Senate-confirmed 
Secretary can effectively advocate for CISA's budget need and policy 
positions at the White House.
    In the absence of strong DHS leadership, the White House proposes 
to gut CISA's budget by over $250 million, cutting funding for 
cybersecurity activities and eliminating the Chemical Facility Anti-
Terrorism Standards Program (CFATS).
    As a Member of Congress with a number of chemical facilities in my 
Congressional District and a long-time advocate for ensuring chemical 
facilities across the Nation are not weaponized by terrorists, I was 
particularly troubled to learn the administration supports eliminating 
the program.
    I believe that if DHS had a permanent Secretary in place, the White 
House would not have proposed eliminating the program. Accordingly, on 
Monday, I introduced legislation to extend the CFATS program for 18 
months, and I expect CISA to support that effort. I would also note 
that the lack of consistent leadership at DHS has similarly undermined 
S&T's mission.
    The Science and Technology Directorate has been victim of too many 
``course corrections'' to count and has struggled to solidify its 
position as the research and development hub among DHS's components.
    Moreover, its budget is most frequently raided to pay for the 
President's political promises or to cut spending in order to comply to 
budget caps. The President's fiscal year 2021 budget request is no 
different--reducing cyber R&D and cutting University Programs in half.
    We cannot continue to defer investments in R&D for homeland 
security technologies. A permanent Secretary would understand that. I 
will not ask either of you to explain how these proposed cuts will make 
us safer because they will not. Instead, I hope that you will be frank 
with Congress about the resources you need to do your jobs.

    Mr. Richmond. Let me welcome our panel of witnesses.
    First I would like to welcome Chris Krebs, the director of 
the DHS Cybersecurity and Infrastructure Security Agency, back 
to testify before this panel.
    Director Krebs has been at the helm of DHS's cybersecurity 
activity since 2017, and he has been an integral player in 
shaping and developing the Department's election security 
capabilities.
    Next we have Mr. Andre Hentz. He is the acting deputy under 
secretary for science and technology. Deputy Under Secretary 
Hentz has been with S&T since 2014, and in his current role 
since 2017.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Dr. Krebs--Director Krebs, I am 
sorry.
    Mr. Krebs. I will take doctor.
    Mr. Richmond. I made you a doctor overnight.
    [Laughter.]

STATEMENT OF CHRISTOPHER C. KREBS, DIRECTOR, CYBERSECURITY AND 
  INFRASTRUCTURE SECURITY AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Krebs. Chairman Richmond, Ranking Member Rogers, 
Ranking Member Katko, and Members of the subcommittee.
    Happy Cyberspace Solarium Report Rollout Day. Congressman 
Langevin, thanks for all your efforts there, and thank you for 
recognizing the significance and importance of CISA in the 
broader National cybersecurity efforts. So thank you for that. 
Thank you for today's opportunity to address the Cybersecurity 
and Infrastructure Security Agency's--CISA's--fiscal year 2021 
budget.
    The 2021 budget provides meaningful investment in CISA's 
ability to lead the National effort to safeguard and secure 
critical infrastructure from cyber and physical threats. To 
accomplish this mission, we must work with our partners where 
they are, not where we are. Accordingly, this budget invests an 
additional field-based personnel that are located outside the 
D.C. Beltway, where our partners are found.
    My statement focuses on each of our priorities: Protection 
of Federal networks; election infrastructure security; securing 
operational technology; supply chain risk management; and soft 
target security.
    First, with Federal cybersecurity, across the Federal 
Government our ability to defend networks has improved. The 
budget will help CISA establish a cybersecurity shared services 
offering that will centralize, standardize, and deliver best-
in-class cybersecurity capabilities to Federal agencies. 
Through this effort CISA will develop service standards, 
evaluate individual offerings, and oversee a marketplace of 
qualified cybersecurity services for Federal customers.
    We must also invest in our people. CISA is leading a 
Government-wide training program for all Federal cybersecurity 
professionals. This includes a rotational program, training 
program, and re-skilling academy. Training cybersecurity 
professionals is a crucial part of closing the gap on workforce 
demands for CISA and across our Government.
    But perhaps the most high-profile threat today is attempts 
by nation-state actors to interfere in our elections. Over the 
last several years, as you heard yesterday, we have been--
become close partners with the election community, and we are 
focusing on broadening the reach and depth of assistance, 
emphasizing the criticality of election audit ability, 
prioritizing the need to patch vulnerabilities in election 
systems, and developing locality-specific cybersecurity 
profiles that officials can use to manage risk.
    Also, we are focusing on operational technologies or 
control systems, those components that operate our critical 
infrastructure. The increasing integration and connectivity of 
those technologies has vastly increased the potential impact of 
cyber threats. Included in this year's budget is funding to 
expand our control system security efforts, including sensing 
analytics and partner training platforms.
    We are also investing in our efforts to understand and 
manage supply chain security risks. CISA's Supply Chain Risk 
Management Task Force has brought together 20 Federal agencies 
and 20 of the largest companies in information communications 
sectors to reach consensus on how to best manage risk. We are 
not using--rather, we are using this forum to understand what 
is working and what is not, sharing best practices and crowd-
sourcing solutions to close out supply chain risk management 
gaps.
    At CISA we also recognize that far too often our Nation is 
confronted with violent attacks on places such as entertainment 
venues, places of worship, and schools. Funding in this budget 
to support CISA's school safety initiatives, including 
stewardship of the Federal School Safety Clearinghouse, a one-
stop shop for local officials to find resources that help 
provide children with a safe learning environment.
    Before closing, research and development is critical to 
CISA's mission. CISA and S&T are committed to effective 
coordination. We are partnering to advance threat-driven cyber 
analytics and development of a cyber risk framework. This 
project is an important first step in the larger plan to 
enhance analytics in conjunction with big data and machine 
learning.
    In closing, I would like to briefly touch on my keys to 
success for CISA in 2020. Those keys to success are threefold: 
First, we must continue focusing on our strengths; second, we 
must seek strategic alignment with our interagency partners, 
not compete with them; and third, we must be a customer-centric 
organization.
    So what are our strengths? Convening, bringing a broad 
range of partners together to tackle tough challenges, sharing 
actionable information, and collectively identifying best 
practices for areas like Federal and State and local 
cybersecurity and soft target security.
    Who must we align with? Our partners in the intelligence 
community and law enforcement, the Department of Defense, and 
elsewhere in the civilian government. This is crucial, if we 
are going to be successful, for instance, in election security, 
as well as control systems.
    Last, if we are not intensely focused on our customers, we 
are doing it wrong. We must continue to push--to support out 
across this great Nation and help infrastructure partners big 
and small. Ransomware is the perfect example of how we must 
become a customer-centric organization.
    So with that, thank you for the opportunity to be here 
today. Thank you for your prior investments at CISA. I look 
forward to discussing this year's budget, and I look forward to 
your questions.
    [The prepared statement of Mr. Krebs follows:]
               Prepared Statement of Christopher C. Krebs
                             March 11, 2020
    Good afternoon Chairman Richmond, Ranking Member Katko, and 
distinguished Members of the subcommittee, thank you for the 
opportunity to testify regarding the fiscal year 2021 President's 
budget for the U.S. Department of Homeland Security's (DHS) 
Cybersecurity and Infrastructure Security Agency (CISA). The fiscal 
year 2021 President's budget of $1.78 billion for CISA reflects our 
commitment to safeguard our homeland, our values, and our way of life.
    CISA strengthens the cybersecurity of Federal networks and 
increases the security and resilience of our Nation's critical 
infrastructure. Safeguarding and securing critical infrastructure is a 
core DHS mission. The fiscal year 2021 President's budget recognizes 
the criticality of this mission and ensures the men and women of CISA 
have the resources they need to achieve it.
    CISA's defends the homeland against the threats of today, while 
working with partners across all levels of government and the private 
sector to secure against the evolving risks of tomorrow--``Defend 
Today, Secure Tomorrow.''
    As the Nation's risk advisor, CISA is a hub of efforts to build 
National resilience against a growing and interconnected array of 
threats; organizing risk management efforts around securing the 
National Critical Functions that underpin National security, economic 
growth, and public health and safety; and ensuring Government 
continuity of operations. CISA marshals its wide-ranging domain 
expertise and central coordination role to guide partners in navigating 
hazards ranging from extreme weather and terrorism to violent crime and 
malicious cyber activity. We identify high-impact, long-term solutions 
to mobilize a collective defense of the Nation's critical 
infrastructure.
    The fiscal year 2021 President's budget for CISA has been 
reorganized under new budget lines to fully reflect the operational 
vision for CISA. The CISA Act of 2018 reorganized the National 
Protection and Programs Directorate into an operational component, and 
the budget should reflect the new organization. For instance, 
management and operational watch activities that were previously spread 
across multiple budget lines are now merged into a single funding line 
that will serve as a nexus of cyber, physical, and communications 
integration. The new funding lines also combine all regional field 
operations, including Protective Security Advisors and Cybersecurity 
Advisors, into a single report channel. This enhances the ability of 
CISA to engage with critical infrastructure partners outside the 
beltway, where they are located. If adopted, this new structure will 
streamline authority, increase transparency, and better enable CISA to 
execute the funding.
                            cisa priorities
    Nefarious actors want to disrupt our way of life. Many are inciting 
chaos, instability, and violence. At the same time, the pace of 
innovation, our hyper connectivity, and our digital dependence has 
opened cracks in our defenses, creating new vectors through which our 
enemies and adversaries can strike us. This is a volatile combination, 
resulting in a world where threats are more numerous, more widely 
distributed, highly networked, increasingly adaptive, and incredibly 
difficult to root out.
    CISA is strengthening our digital defense as cybersecurity threats 
grow in scope and severity. The fiscal year 2021 President's budget 
continues investments in Federal network protection, proactive cyber 
protection, infrastructure security, reliable emergency communications 
for first responders, and supply chain risk management.
    CISA, our Government partners, and the private sector, are all 
engaging in a more strategic and unified approach toward improving our 
Nation's defensive posture against malicious cyber activity. In May 
2018, DHS published the Department-wide DHS Cybersecurity Strategy, 
outlining a strategic framework to execute our cybersecurity 
responsibilities during the next 5 years. Both the Strategy and 
Presidential Policy Directive 21--Critical Infrastructure Security and 
Resilience emphasize an integrated approach to managing risk.
    CISA ensures the timely sharing of information, analysis, and 
assessments to build resilience and mitigate risk from cyber and 
physical threats to infrastructure. CISA's partners include 
intergovernmental partners, the private sector, and the public. Our 
approach is fundamentally one of partnerships and empowerment, and it 
is prioritized by our comprehensive understanding of the risk 
environment and the corresponding needs of our stakeholders. We help 
organizations manage their risk better.
    The fiscal year 2021 President's budget includes $1.1 billion for 
cybersecurity initiatives at CISA to detect, analyze, mitigate, and 
respond to cybersecurity threats. We share cybersecurity risk 
mitigation information with Government and non-Government partners. By 
issuing guidance or directives to Federal agencies, providing tools and 
services to all partners, and leading or assisting the implementation 
of cross-Government cybersecurity initiatives, we are protecting 
Government and critical infrastructure networks.
    Within the cybersecurity initiatives funding amount, the fiscal 
year 2021 President's budget includes $660 million for cybersecurity 
technology and services, including Continuous Diagnostics and 
Mitigation (CDM) and National Cybersecurity Protection System (NCPS) 
programs. These programs provide the technological foundation to secure 
and defend the Federal Government's information technology against 
advanced cyber threats.
    NCPS is an integrated system-of-systems that delivers intrusion 
detection and prevention, analytics, and information-sharing 
capabilities. NCPS primarily protects traffic flowing into and out of 
Federal networks. One of its key technologies is the EINSTEIN intrusion 
detection and prevention sensor set. This technology provides the 
Federal Government with an early warning system, improves situational 
awareness of intrusion threats, and near-real time detection and 
prevention of malicious cyber activity. Funding included in the budget 
will allow NCPS to begin transitioning capabilities to use commercial 
and Government cloud services to the greatest extent possible. The 
funding will also support newly-developed information sharing and 
intrusion prevention capabilities into the operational environment.
    CDM provides Federal network defenders with a common set of 
capabilities and tools they can use to identify cybersecurity risks 
within their networks, prioritize based on potential impact, and 
mitigate the most significant risks first. The program provides Federal 
agencies with a risk-based and cost-effective approach to mitigating 
cyber risks inside their networks. The fiscal year 2021 President's 
budget includes funding to continue deployment and operation of 
necessary tools and services for all phases of the CDM program. Funding 
will cover completion of activities to strengthen management of 
information technology assets including for cloud and mobile-based 
assets and protection of data on networks that carry highly-sensitive 
and critical information. By pooling requirements across the Federal 
space, CISA is able to provide agencies with flexible and cost-
effective options to mitigate cybersecurity risks and secure their 
networks.
    Funding for cybersecurity initiatives also includes $408 million 
for cybersecurity operations. Within this category, approximately $264 
million is dedicated to threat hunting and vulnerability management 
operations. Threat hunting activity identify, analyze, and address 
significant cyber threats across all domains through detection 
activities, countermeasures development, as well as hunt and incident 
response services. Vulnerability management capabilities include 
assessments and technical services, such as vulnerability scanning and 
testing, penetration testing, phishing assessments, and red teaming on 
operational technology that includes the industrial control systems 
which operate our Nation's critical infrastructure, as well as 
recommended remediation and mitigation techniques that improve the 
cybersecurity posture of our Nation's critical infrastructure.
    The budget includes funding to support CyberSentry. This voluntary 
program is designed to detect malicious activity on private-sector 
critical infrastructure networks, including operational technology, 
such as industrial control systems. The pilot will utilize network 
sensor systems to detect threats; collect threat data; increase the 
speed of information sharing; and produce real-time, effective, 
actionable information to the companies vulnerable to malicious 
attacks.
    Funding is also included to support cybersecurity capacity 
building. Capacity building is delivering tools and services to 
stakeholders to strengthen cyber defenses and coordinating policy and 
governance efforts to carry out CISA's statutory responsibility to 
administer the implementation of cybersecurity policies and practices 
across the Federal Government. The budget provides funding for a 
cybersecurity shared services office that will centralize, standardize, 
and deliver best-in-class cybersecurity capabilities to Federal 
agencies. Through this effort, CISA will develop service standards, 
evaluate individual offerings, and oversee a marketplace of qualified 
cybersecurity services to Federal customers.
    Through this budget, CISA will lead a Government-wide cybersecurity 
training program for all Federal cybersecurity professionals, including 
an interagency cyber rotational program, a cybersecurity training 
program, and a cyber-reskilling academy. Training cybersecurity 
professionals will be a crucial part of closing the gap on workforce 
demands for CISA and across Government. This effort also includes 
funding for CISA to continue hosting the annual President's Cup 
Challenge, a cyber competition to test the skills of the Federal cyber 
workforce.
    The fiscal year 2021 President's budget request also includes 
funding for State and local Government cybersecurity and infrastructure 
assistance prioritized for election security. These resources are 
institutionalizing and maturing CISA's election security risk-reduction 
efforts, allowing the agency to continue providing vulnerability 
management services such as cyber hygiene scans, and on-site or remote 
risk and vulnerability assessments, organizational cybersecurity 
assessments, proactive adversary hunt operations; and enhanced threat 
information sharing with State and local election officials.
    For infrastructure security, the fiscal year 2021 President's 
budget includes $96 million for protecting critical infrastructure from 
physical threats through informed security decision making by owners 
and operators of critical infrastructure. Activities include conducting 
vulnerability and consequence assessments, facilitating exercises, and 
providing training and technical assistance Nation-wide. The program 
leads and coordinates National efforts on critical infrastructure 
security and resilience by developing strong and trusted partnerships 
across the Government and private sector. This includes reducing the 
risk of a successful attack on soft targets and crowded places, from 
emerging threats such as unmanned aircraft systems. Funding supports 
CISA's school safety initiatives, including stewardship of the Federal 
School Safety Clearinghouse, the expansion of existing school security 
activities, and the development of additional resources and materials 
for safety to provide children with a safe and secure learning 
environment.
    This year's budget eliminated funding for the Chemical Facilities 
Anti-Terrorism Standards program while simultaneously increasing 
funding significantly for the Protective Security Advisors program. 
This will allow CISA to provide voluntary support for chemical 
facilities without the unnecessary burden of regulatory requirements, 
placing the chemical sector on par with all the other critical 
infrastructure sectors for which CISA has oversight.
    The fiscal year 2012 President's budget includes $158 million for 
emergency communications to ensure real-time information sharing among 
first responders during all threats and hazards. CISA enhances public 
safety interoperable communications at all levels of Government across 
the country through training, coordination, tools, and guidance. We 
lead the development of the National Emergency Communications Plan to 
maximize the use of all communications capabilities available to 
emergency responders--voice, video, and data--and ensures the security 
of data and information exchange. CISA supports funding, sustainment, 
and grant programs to advance communications interoperability, such as 
developing annual SAFECOM Grant Guidance in partnership with Public 
Safety stakeholders, and partnering with FEMA Grants Program 
Directorate to serve as communications subject-matter experts for FEMA-
administered grants. We assist emergency responders and relevant 
Government officials with communicating over commercial networks during 
natural disasters, acts of terrorism, and other man-made disasters 
through funding, sustainment, and grant programs to support 
communications interoperability and builds capacity with Federal, 
State, local, Tribal, and territorial stakeholders by providing 
technical assistance, training, resources, and guidance. The program 
also provides priority telecommunications services over commercial 
networks to enable National security and emergency preparedness 
personnel to communicate during telecommunications congestion scenarios 
across the Nation.
    The President's budget includes $167 for the Integrated Operations 
Division. This division is charged with coordinating CISA's front line, 
externally facing activities in order to provide seamless support and 
an expedited response to critical needs. These funds include $82 
million to support 373 protective security advisors and cybersecurity 
advisors located across the country. Protective Security Advisors 
conduct proactive engagement and outreach with Government at all levels 
and critical infrastructure. Additionally, cybersecurity advisors 
expand the DHS cyber field presence across the country. These resources 
better enable CISA to reach critical infrastructure partners and other 
stakeholders where they live outside the beltway.
    The fiscal year 2021 President's budget fully funds CISA's risk 
management activities, including $91.5 million for the National Risk 
Management Center (NRMC). The NRMC is a planning, analysis, and 
collaboration center working to identify and address the most 
significant risks to our Nation's critical infrastructure. The NRMC 
also houses the National Infrastructure Simulation and Analysis Center 
(NISAC), which provides homeland security decision makers with timely, 
relevant, high-quality analysis of cyber and physical risks to critical 
infrastructure across all sectors during steady state and crisis action 
operations. Increased funding will support election security, securing 
5G telecommunications, and supply chain risk analysis.
    The new Stakeholder Engagement and Requirements program is funded 
at $38 million. This funding will support the coordination and 
stewardship of the full range of CISA stakeholder relationships; the 
operation and maintenance of the CISA stakeholder relationships; the 
operation and maintenance of the CISA stakeholder relationship 
management system; the implementation of the National Infrastructure 
Protection Plan voluntary partnership framework; the management and 
oversight of National infrastructure leadership councils; and the 
effective coordination among the National critical infrastructure 
stakeholder community in furtherance of shared goals and objectives.
    The President's budget asks for $24 million within the Science and 
Technology Directorate (S&T) to continue research and development 
efforts in support of CISA's cybersecurity mission. CISA and S&T have 
made tremendous strides in collaborating to advance joint priorities. 
In fiscal year 2019, CISA and S&T awarded a project to create a 
`pipeline' for low technology readiness-level efforts to mature and 
transition into CISA. Workstreams in this pipeline are advancing 
threat-driven cyber analytics and development of a cyber risk 
framework. This project is an important first step in the larger plan 
for CISA and S&T to enhance analytics in conjunction with big data and 
machine learning. Subsequent efforts in fiscal year 2020 and beyond are 
planned to leverage hyperscale cloud platforms and significantly 
advance the data and analytics capabilities of CISA.
    Finally, Congress provided a substantial investment last year to 
consolidate CISA in a new state-of-the-art headquarters facility at 
DHS's St. Elizabeth's Campus. CISA currently must operate from 8 
different leased locations spread across the National Capital Region, 
in facilities not capable of fully supporting CISA operational demands, 
which contributes to administrative inefficiencies. The fiscal year 
2021 President's budget provides $459 million to the General Services 
Administration for the continued consolidation of DHS facilities at the 
St. Elizabeth's Campus. Included in this amount are funds for both 
additional DHS component building construction and also campus 
infrastructure enhancements, such as additional parking, that are 
critical to the success of CISA's future relocation to the campus.
                               conclusion
    In the face of increasingly sophisticated threats, CISA employees 
stand on the front lines of the Federal Government's efforts to defend 
our Nation's Federal networks and critical infrastructure. The threat 
environment is complex and dynamic with interdependencies that add to 
the challenge. As new risks emerge, we must better integrate cyber and 
physical risk in order to effectively secure the Nation. CISA 
contributes unique expertise and capabilities around cyber-physical 
risk and cross-sector critical infrastructure interdependencies.
    I recognize and appreciate this committee's strong support and 
diligence as it works to resource CISA in order to fulfill our mission. 
Your support over the past few years has helped bring additional 
Federal departments and agencies into NCPS more quickly, speed 
deployment of CDM tools and capabilities, and build out our election 
security efforts. We at CISA are committed to working with Congress to 
ensure our efforts cultivate a safer, more secure, and resilient 
homeland while also being faithful stewards of the American taxpayer's 
dollars.
    Thank you for the opportunity to appear before the subcommittee 
today, and I look forward to your questions.

    Mr. Richmond. Thank you, Director.
    I now recognize Acting Deputy Under Secretary Hentz to 
summarize his statement for 5 minutes.

  STATEMENT OF ANDRE HENTZ, ACTING DEPUTY UNDER SECRETARY FOR 
  SCIENCE AND TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Hentz. Good afternoon, Chairman Richmond, Ranking 
Member Katko, Ranking Member Rogers, and distinguished Members 
of the subcommittee. Thank you for inviting me here today to 
testify on the President's budget for fiscal year 2021, which 
includes a request for $643 million for the Science and 
Technology Directorate within the Department of Homeland 
Security.
    S&T's research develops activities which support a broad 
range of DHS missions, including domain threat awareness, 
delivery of mitigation strategies, and creating novel 
technologies and approaches for the components, first 
responders, and other partners across the Homeland Security 
enterprise.
    Our customers put their lives on the line every day to keep 
our Nation safe. Having the correct tools, techniques, and/or 
technologies can be vital to the operational safety and 
success.
    Research and development must enable efficient, effective, 
and secure operations across all DHS security missions by 
applying timely, scientific, engineering, and innovation 
solutions. This is how S&T delivers results. Technology 
innovation cycles are rapidly changing, and the nature of the 
threats we see are dynamic.
    It is important to note, however, that S&T represents less 
than one-half of 1 percent of the entire Federal R&D budget. 
Let me repeat that: S&T represents less than one-half of 1 
percent of the entire Federal research and development budget, 
and we strive every day to get as much value out of those funds 
as possible.
    Under my leadership, with Mr. Bryan, S&T has strengthened 
our relationship with our customers by providing impactful 
solutions to those on the front line. We continue to solidify 
and strengthen S&T's core capabilities and provide deliberative 
approaches to program execution that ensures timely delivery 
and solid returns on investment for our Nation's taxpayers.
    The fiscal year 2021 request includes $5 million for 
quantum information sciences, including artificial 
intelligence. S&T is beginning to focus on machine learning, 
with the goal of mitigating risk to potential misuse of 
artificial intelligence, and identifying opportunities and 
applications for the use of trustworthy artificial 
intelligence, while providing privacy protection and developing 
new governance and policy frameworks for artificial 
intelligence and machine learning.
    The fiscal year 2021 budget request provides $14.3 million 
for S&T's Probabilistic Analysis for National Threats, Hazards, 
and Risk program, known as PANTHR. PANTHR aligns S&T's chemical 
and biological hazard awareness and characterization activities 
to provide timely, accurate, and defensible decision support 
tools and knowledge to stakeholders. Working with the 
Countering Weapons of Mass Destruction Directorate, PANTHR is 
leveraging S&T's National Biodefense Analysis and 
Countermeasures Center to address pertinent scientific 
questions and DHS operational concerns regarding the surface 
stability and decontamination of COVID-19. Funding in 2021 
would allow PANTHR to develop additional assessment 
capabilities to address growing infrastructure concerns such as 
the bio-economy, and fill other critical gaps regarding weapons 
of mass destruction risks to the homeland.
    The administration is also focusing on targeted violence 
and terrorism prevention, and S&T's 2021 requests includes $7 
million for research to inform policy, strategy, tactics, 
techniques, and procedures in this area. S&T is actively 
working to support technology integration and techniques to 
reduce the likelihood of mass violence and improve the ability 
to prevent and respond to a mass violent event.
    The fiscal year 2021 budget request supports S&T's Office 
of University Programs in two vital efforts, our centers of 
excellence and working with minority-serving institutions. 
Centers of excellence that receive funding in fiscal year 2021 
will conduct research and development that aligns with the 
administration's priorities to strengthen border security, 
cybersecurity, infrastructure protection, and prioritize 
transnational criminal investigations.
    Finally, the 2021 budget requests at $18.9 million in a 
procurement, construction, and investment account for S&T to 
begin to address the decontamination and closure of the Plum 
Island Animal Disease Center. S&T is committed to our mission 
to deliver effective, innovative insights, methods, and 
solutions for critical needs of DHS components, first 
responders, and our operational partners in the Homeland 
Security space.
    Chairman Richmond, Ranking Member Katko, Ranking Member 
Rogers, and Members of the committee, thank you again for the 
opportunity to appear before you today, and for your continued 
support of S&T. I look forward to answering your questions.
    [The prepared statement of Mr. Bryan, as presented by Mr. 
Hentz, follows:]
                  Prepared Statement of William Bryan
                             March 11, 2020
    Good afternoon Chairman Richmond, Ranking Member Katko, and 
distinguished Members of the subcommittee. Thank you for inviting me 
here today to testify on the President's budget request for fiscal year 
2021, which includes a request of $643.7 million for the Science and 
Technology Directorate (S&T) within the U.S. Department of Homeland 
Security (DHS).
    S&T's research and development (R&D) activities support a broad 
range of DHS missions, including domain threat awareness, delivering 
mitigation strategies, and creating novel technology and approaches for 
the components, first responders, and other partners across the 
homeland security enterprise. Our customers put their lives on the line 
every day to keep our Nation safe, and having the correct tools, 
techniques, and/or technologies can be vital to the operators' safety 
and success.
    We must enable efficient, effective, and secure operations across 
all homeland security missions by applying timely scientific, 
engineering, and innovative solutions through research, design, test 
and evaluation, and acquisition support. This is how S&T delivers 
results. Technology innovation cycles are rapidly changing and the 
nature of the threats we see is dynamic. This combination presents a 
significant challenge to traditional R&D approaches as well as meeting 
component requirements and needs in a fiscally constrained R&D 
environment. S&T is less than 1 percent of the entire Federal R&D 
budget--and we strive every day to get as much value out of those funds 
as possible.
    Therefore, it is my responsibility to ensure an efficient, 
effective, and nimble organization is in place to address R&D needs of 
Homeland Security front-line operators, particularly the DHS 
operational components and first responders, today and into the future. 
Either through the identification of existing technologies or the 
timely development of new technology, S&T can provide them with the 
tools they need to safely and effectively protect the homeland and the 
American people. Under my leadership S&T has strengthened our 
relationships with our customers, the DHS operational components and 
first responders, to provide impactful solutions to those on the front 
line. We continue to solidify and strengthen S&T's core capabilities 
and provide a deliberative approach to program execution that ensures 
timely delivery and solid return on investment for our Nation's 
taxpayers.
    S&T has become more agile and responsive, ready to move quickly in 
response to changes in the threat environment, and makes use of 
existing technologies, when available, that can be adapted and 
leveraged to expedite the development of vital capabilities. S&T has 
significantly enhanced its ability to transfer capabilities to where 
they are most needed by working closely with operators, component 
partners, and industry to deliver effective solutions. The revitalized 
S&T has strengthened its relationships with DHS components, first 
responders, and other customers, and results in a more integrated 
approach to innovation, requirements gathering, and problem solving. At 
a strategic level, S&T has created a capability to identify, 
prioritize, and report on emerging technology risks facing the United 
States. Together with DHS Policy, S&T will identify and assess emerging 
technologies most likely to significantly improve operations and/or 
threaten the DHS mission over the next 2-5 years. Results will support 
senior DHS executives as they prioritize the list of technologies and 
shape the DHS investment portfolio to address risk.
    A strong cross-Department cybersecurity R&D program is critical for 
DHS. The Cyber Security & Infrastructure Security Agency (CISA) and S&T 
have made tremendous strides in resetting the relationship, directing 
R&D resources into mission support of CISA requirements. CISA and S&T 
have established repeatable processes to identify capability gaps, 
prioritize needs, and execute on RD&I needs. The fiscal year 2021 
cybersecurity R&D budget request is for $24 million and places all 
cyber R&D funding with S&T.
    S&T is currently partnered with the National Institutes of 
Artificial Intelligence (AI) with the goal of mitigating risks to 
misuse of AI, identifying opportunities and applications of AI within 
the homeland security mission space, improving privacy protection, and 
developing new governance and policy frameworks for artificial 
intelligence and machine learning. S&T is working with its operational 
DHS component partners to assess opportunities for leveraging Automated 
Machine Learning (AutoML) and related data preparation tools as a means 
of accelerating understanding and use of this technology within the DHS 
enterprise. In fiscal year 2021, S&T will examine and characterize the 
state of artificial intelligence research relative to future homeland 
security mission applications. Research activities will focus on the 
development of core capabilities that enable trustworthy artificial 
intelligence to improve core automation capabilities that are secure, 
private, and trusted for critical homeland security applications.
    The fiscal year 2021 budget request provides $14.4 million for 
S&T's Probabilistic Analysis for National Threats Hazards and Risks 
(PANTHR) program that aligns S&T's chemical and biological hazard 
awareness and characterization activities to provide timely accurate 
and defensible decision support tools and knowledge to stakeholders. 
PANTHR is currently supporting the Countering Weapons of Mass 
Destruction Office (CWMD) to address the on-going Coronavirus outbreak 
by providing consolidated up-to-date information regarding the virus to 
DHS components. PANTHR is currently leveraging the capabilities of one 
of the DHS laboratories, the National Biodefense Analysis and 
Countermeasure Center (NBACC), which is addressing pertinent scientific 
questions and DHS operational concerns regarding Coronavirus surface 
stability and decontamination. PANTHR funding in fiscal year 2021 would 
further support the expansion of these National capabilities to address 
current and emerging chemical and biological concerns. Additionally, 
the fiscal year 2021 request would allow PANTHR to develop additional 
assessment capabilities to address growing infrastructure concerns, 
such as the bio-economy, and fill other critical technical hazard data 
gaps regarding WMD risks to the Homeland.
    S&T is requesting $35.9 million in the fiscal year 2021 budget to 
directly address Customs and Border Protection (CBP), the U.S. Coast 
Guard (USCG), the U.S. Secret Service (USSS), and the Federal 
Protective Service (FPS) requirements for Countering Unmanned Aircraft 
System (CUAS) requirements. In close coordination with our operational 
customers, S&T is responsible for the initial CUAS deployment 
architecture, technology selection, system integration, system test, 
training and cyber compliance. The fiscal year 2021 S&T CUAS investment 
will focus on mission interoperability with the Department of Defense 
and Department of Justice in the National Capital Region, improved CUAS 
capabilities for DHS components, and addressing future threats. UAS 
threats to critical infrastructure and security activities will likely 
increase in the near future as the number of UAS introduced into the 
National airspace continues to increase. However, currently the use of 
technical means to detect, track, and disrupt malicious UAS operations 
remains limited.
    S&T is dedicated to developing or adopting innovative tools for DHS 
components, and the fiscal year 2021 budget request supports that 
effort. For example, the S&T Opioid Detection project continues to 
integrate advanced technologies, including narcotics anomaly detection 
algorithms and chemical sensing technologies, into CBP international 
mail facilities, and to evolve efforts directed at detecting synthetic 
opioids in additional operational environments in response to changing 
trafficking dynamics. Increased funding will also further improve the 
understanding of supply chain logistics and intelligence to aid in 
targeting, investigations, and ultimately, disruption of international 
smuggling. The administration is also focusing on Targeted Violence and 
Terrorism Prevention, and S&T is a vital partner using research to 
inform policy, strategy, tactics, techniques, and procedures. S&T is 
actively working to support technology integration and techniques to 
reduce the likelihood of mass violence and improve the ability to 
prevent and respond to a mass violence event.
    The fiscal year 2021 request continues support for S&T's Silicon 
Valley Innovation Program (SVIP) at $10 million, which leverages 
innovative commercial capabilities from across the country through non-
traditional Government contractors to rapidly deliver technology to 
fulfill DHS component-defined requirements. This program fosters rapid 
development and delivers tested technology into the field in a much 
shorter time frame than is possible under traditional vehicles. S&T's 
SVIP collaborates with DHS operational components to provide solutions 
that enhance overall situational awareness, detection, tracking, 
interdiction, and apprehension.
    To date, S&T's SVIP has awarded $18 million in funding and 
processed over 485 applications across 14 topic areas. S&T has worked 
with 49 small start-up companies from 15 different States and leveraged 
over $500 million in private-sector investment that aligns on-going 
private-sector activity with DHS operational component requirements. 
SVIP has successfully transitioned 3 technologies into CBP operational 
environments including a new generation of radar to support U.S. Border 
Patrol operations. This radar technology was incorporated into 58 
Border Patrol towers on the Southwest Border and a similar amount are 
planned for transition in 2020.
    The fiscal year 2021 budget request adds a Procurement, 
Construction, and Improvements account to address the decontamination 
and closure of the Plum Island Animal Disease Center. S&T is on time 
and on budget to complete the construction of the National Bio and 
Agro-Defense Facility (NBAF). This state-of-the-art facility will be 
transferred to the U.S. Department of Agriculture upon completion of 
construction and will be the Nation's only Bio Safety Level 4 
laboratory that is capable of studying large animal diseases in 
livestock, such as African Swine Fever and Foot and Mouth Disease. 
After NBAF is completed, the Plum Island facility will require 
decontamination. The $18.9 million of the fiscal year 2021 request will 
begin decontamination activities and stand up the program office to 
manage this multi-year effort.
    The fiscal year 2021 budget request supports S&T's Office of 
University Programs in two vital efforts, our Centers of Excellence 
(COE) and working with Minority Serving Institutions (MSI).
    The fiscal year 2021 budget request allows for the continuation of 
the University-based COEs that are focused on homeland security mission 
needs. COEs that will receive funding in fiscal year 2021 will conduct 
research and development that aligns with the administration's 
priorities to strengthen border security, cybersecurity and 
infrastructure protection, and prioritize trans-national criminal 
investigations. S&T conducts rigorous evaluations of each Center's 
performance using established criteria to help inform project funding 
decisions that meet operator needs and stay focused on transferring or 
transitioning research and technology outputs into field use.
    S&T seeks to leverage and utilize the unique intellectual capital 
in the MSI community to address current and future homeland security 
challenges and to provide relevant learning opportunities to diverse 
and highly talented individuals and inspire the next generation of 
dedicated to homeland security professionals. Our efforts provide 
learning opportunities for students that already are pursuing Science, 
Technology, Engineering, and Mathematic (STEM)-related degrees. These 
awards support MSIs in their efforts to attract highly technical 
students and provide exposure and mentorship opportunities with DHS 
programs. S&T's efforts with MSIs are important for ensuring students 
develop the cross-functional skills essential to their flourishing and 
meeting the demanding needs of the homeland security missions. By 
establishing continuous relationships between COEs, MSIs, DHS component 
agencies, and private-sector entities, S&T is expanding partnering 
institutions and providing resources needed for students to gain 
meaningful work experiences that prove invaluable to the growth of 
their careers in homeland security-related areas.
    S&T's mission is to deliver effective and innovative insight, 
methods, and solutions for the critical needs of DHS components and our 
operational partners in homeland security.
    Chairman Richmond, Ranking Member Katko, and Members of the 
committee, thank you again for the opportunity to appear before you 
today and for your continued support of S&T.
    I look forward to answering your questions.

    Mr. Richmond. I want to thank the witnesses for their 
testimony. I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for 5 minutes for questions.
    Director Krebs, in January 2017 the Office of the Director 
of National Intelligence issued a report concluding that the 
Russian government meddled in the 2016 Presidential election, 
and that Russia's goal was to assist the campaign of now-
President Trump.
    Last month several news outlets reported that President 
Trump removed the acting director of national intelligence, 
Joseph McGuire, had the staff from his office brief bipartisan 
members of the House Permanent Select Committee on Intelligence 
on foreign threats to U.S. elections. Are you familiar with 
that?
    Mr. Krebs. I am certainly aware of the intelligence 
community assessment of 2017, and recall seeing some of the 
press reports. Yes, sir.
    Mr. Richmond. Initial reports indicated that ODNI staff 
told Members in the briefing that the Russian government, once 
it--was once again attempting to meddle in our elections to 
benefit President Trump's re-election. This is the same thing 
that Russia did in 2017, when they interfered in the U.S. 
election to help President Trump. Wouldn't that be the same 
assessment?
    Mr. Krebs. I am sorry, is the--can you repeat the question? 
I am trying to understand what----
    Mr. Richmond. Well, the intelligence is the same 
intelligence from 2017 that Russia is trying to interfere in 
the election.
    Mr. Krebs. So I certainly can't talk to the intelligence. I 
would defer to the intelligence community on the specific 
assessments. We are planning as if the Russians and others are 
coming back for the 2020 election to again attempt to 
interfere.
    Mr. Richmond. Let me just get to the--my main point on this 
is that we need to believe in the intelligence that we are 
getting. All of the reports indicate that the assessment and 
intelligence changed once the President didn't like it.
    We, as Members of Congress, need to know that we are going 
to get the whole truth and nothing but the truth from our 
intelligence communities, because we have a responsibility to 
act whether we like it--don't like the information.
    So the real question to you is can we believe and trust 
that the information we are getting from you, and you all in 
the intelligence community, is the whole truth and nothing but 
the truth?
    Mr. Krebs. Yes, sir, absolutely.
    Mr. Richmond. Let me shift a little bit to CFATS. I 
represent, probably, the No. 1 and No. 2 largest petrochemical 
district in the country. I am concerned that--where the 
proposed budget eliminates the CFS program. Last year officials 
from CISA testified before this committee that CFATS is a vital 
part of our Nation's counter-terrorism efforts, and very much a 
pressing need in view of the continuing level of chemical 
terrorism threats.
    January 15, DHS issued an alert warning about heightened 
threats from Iran, specifically in the chemical sector. So can 
you share any information you have about what intelligence 
assessments or security assessments CISA has completed to 
support the elimination of the CFATS program, and how will 
eliminating CFATS make my constituents safer?
    Mr. Krebs. So thank you for the question specific to the 
January alert related to the heightened tensions of Iran. I 
don't believe that was associated with any specific 
intelligence product targeting chemical--the chemical sector. 
That was more--again, back to my opening comment about being a 
customer-centric organization, that was a request that came in 
from the chemical sector that said, ``Can you guys pull 
something together for the sector that will speak specifically 
to Iran and the things the chemical sector can do to protect 
the sector?''
    So more broadly on the CFATS issue, I think where we are 
right now is that, you know, over 15 years or so of 
implementation of the CFATS program, there is no question that 
we have changed the risk management dynamics across that 
sector. At the same time, the threat landscape has also 
shifted. Some of the players that were heavy in the 2005 to 
2007 period are not necessarily on the map any more. In the 
mean time, other actors have spread up. The economy, in and of 
itself, how it works, supply chain, chemicals and commerce have 
also shifted.
    So I think part of what we are looking to accomplish here 
is, if you look back at CFATS in general and the application of 
the regulatory program to the sector, it really only 
encompasses about 3,300 facilities. So, if you look back at the 
fiscal year 2020 budget, that is about $72 million across 3,300 
facilities.
    What we are looking to accomplish here is, as we have 
fundamentally changed the way risk is managed in the chemical 
sector across at least 3,300 facilities, what opportunity do we 
have to extend that risk management opportunity across the 
40,000 facilities of the chemical sector?
    My sense is that, regardless of what happens here--and of 
course, we will implement whatever Congress and--passes, and 
the President signs, whether it is a re-authorization of CFATS 
or a shift to a voluntary program. But the bigger point here is 
we are looking for this opportunity to more broadly change risk 
management posture across the chemical sector.
    Mr. Richmond. My last question would be do you support a 
temporary extension of CFATS so Congress can determine the 
appropriate path forward, No. 1; and No. 2, do you maintain a 
list of unfunded priorities so that--if you have money, things 
that you would do?
    Mr. Krebs. Sir, we do have a significant list of PDOs, or 
program opportunities that we would be able to--if funded, we 
would be able to execute, of course.
    On your private--on your first question, you know, again, 
we are in a transition planning process right now with about a 
month, a little over a month or so, out from expiration of the 
program. So we are focused on transitioning right now. But 
whatever happens, again, we have the funding for the rest of 
the year to execute the program if there is a temporary 
extension put in. Thanks.
    Mr. Richmond. Thank you, and I yield back. I now recognize 
the Ranking Member, the gentleman from New York, Mr. Katko, for 
5 minutes.
    Mr. Katko. Thank you, Mr. Chairman. Mr. Krebs, I want to 
kind-of ask you about the Cyberspace Solarium report in 
general, but really talk about how it may impact the budget if 
those recommendations get implemented.
    So I view this Solarium report as one of the critical 
things we can do in Congress this year, and I really believe 
that the next 9/11 could absolutely, positively be, God forbid, 
a cyber attack that is cataclysmic. I am not sure we are ready 
for it. I think this report recognizes that, and it 
recognizes--and it makes a series of recommendations.
    I know part of it is on the defense side, and I--you know, 
we are more interested in the homeland side in this committee, 
obviously. So if you could, talk from the homeland side on what 
are some of the big things in that report, and how it might 
be--might impact the budget going forward, so we can plan for 
it.
    Mr. Krebs. So thank you for that. It is interesting, and I 
am sure Congressman Langevin shares this. Being so close to the 
wheel and the development of the report, you see the 
recommendations, and they just make a lot of sense to us. But 
it is good that someone that is not developed in the--you know, 
was not involved in the process also thinks they make sense, 
and this doesn't just kind-of fall flat.
    So the--kind-of the pickup I have seen today, at least, has 
been very, very positive that there is some innovative, bold 
recommendations in the report. But more importantly, there are 
recommendations within the report that are practical and 
eminently implementable. That is the most important aspect of 
the report in and of itself, that whatever is in it, that we 
can actually do it.
    To your point about that defense/offense divide, that was 
one of the important policy signals that comes out of the 
report--to me, at least--that this is not just about investing 
in the Department of Defense and General Nakasone's teams. It 
is also about ensuring that CISA and the rest of the civilian 
cybersecurity space and the private sector have the direction, 
guidance, and resources they need to be able to implement.
    Some of the key takeaways that I have, the report--I think 
I will focus on 3.
    First is that it squarely puts CISA at the central 
coordination point for civilian cybersecurity defense, and that 
brings all the Federal partners together, but that also, 
importantly, brings the Federal--or the private sector, as well 
as State and local partners together.
    There are going to be some significant employment 
implications here. Do we have the facilities that we need to 
truly set up a collaboration space? We are operating in about 9 
different facilities in Baghdad.
    Mr. Katko. A bunch of them, and they do seem to be all over 
the place.
    Mr. Krebs. We have 9 facilities in the National Capital 
Region that we have been in since 2005, when I was a contractor 
with the prior organization, one of the first inhabitants of 
the building. We need a refresh. So we are going through that 
process right now with the St. Elizabeths program.
    We just need to make sure that we have the access for our 
private-sector partners to the facility, that we can 
accommodate regular access from private-sector partners, and 
make it an experience that they want to actually participate 
in. It is a kind-of if-you-build-it-they-will-come sort-of 
approach. So that aspect we are focused on.
    There is another piece of it, continuity of the economy, 
that we are working through right now. That is kind-of, in some 
part, a manifestation of our National critical functions work 
that we launched last year. We are also seeing that play out 
right now across the COVID response. So we have developed a 
framework for analyzing broader supply chain impacts of COVID 
across 4 different elements.
    The first is, is there a commodity disruption that would 
disrupt a business or a function?
    The second is, is there a workforce disruption that you may 
not be able to continue delivering that service or function?
    Then there are 2 kind-of demand-side issues. No. 1, you 
have over-demand, and that could be, like, the N95, you have 
too much demand and, therefore, you have a cratering within the 
function. On the flip side of that, you may see in 
transportation there is a lack of demand. So the function then 
degrades.
    So those are the sorts of things that we want to push into 
that continuity of the economy. We have the rubric, but we 
are--you know, to fully implement that recommendation is going 
to require significant analytic investments within the agency.
    Then last, workforce, workforce, workforce. As I mentioned 
in my opening, to be successful in this space, to be truly a 
customer-centric organization, I have to have personnel out in 
the field, not just engineers here in District of Columbia, but 
customer service professionals out where our customers are. 
That is going to require a significant investment in personnel.
    Mr. Katko. Thank you very much. It does sound like there is 
going to be more requests, from a financial standpoint, from 
the committee and from other committees to implement these 
plans. As we work them out and tease them out and get them into 
legislative formats, we will definitely revisit those issues. 
So thank you very much for that.
    Mr. Hentz, what--if you could, just describe quickly, what 
are the key legislative priorities for your organization this 
year?
    Mr. Hentz. Thank you, Chairman, Ranking Member. What we 
were----
    Mr. Katko. I will take Chairman.
    Mr. Hentz [continuing]. Trying to do right now is----
    [Laughter.]
    Mr. Hentz. What we are trying to do right now is prioritize 
the list of requirements from our operational components.
    To specifically answer your question, those priorities look 
like countering unmanned aerial systems, things like 5G and 
other supply chain risk mitigators. Obviously, support to 
border and commerce, as well as our support to emerging 
biological and chemical risk.
    So those are our core primary equities right now that we 
are trying to focus on.
    Mr. Katko. Thank you very much. I am interested in that. I 
will yield back, but I just want to note in Syracuse, New York 
they are going to start building a 5G manufacturing facility, 
the first one in the country that is going to have all American 
components, which is critical for cybersecurity, going forward.
    We also have one of the largest unmanned aerial system 
research corridors, from Rome Labs to Syracuse, New York. So we 
are at the tip of the spear with some of your priorities. So I 
look forward to working with you further on those, going 
forward. I hope we can continue the lines of communication.
    With that I yield back, Mr. Chairman.
    Mr. Richmond. The gentleman yields back. I now recognize 
the gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Let me begin by 
thanking you for--and the Ranking Member for the supportive 
comments about the Solarium Commission project, and the report 
that we are issuing today, and, Mr. Chairman, for your 
leadership on the issue of cyber, and I look forward to 
continuing to collaborate with you on these--on this important 
topic.
    Good morning to Director Krebs and Mr. Bryan, thank you 
very much for being here today. Mr. Hentz, I appreciate your 
being here today, I look forward to hearing what you have to 
say.
    Director Krebs, I guess I want to begin with you, and 
express my appreciation to you for your participation in the 
Cyberspace Solarium Commission. Your contributions to that 
effort, and the dialog that took place, and the ultimate 
findings, your contributions were invaluable. Obviously, the 
report is being released today, and I am very proud of the work 
that we did bring, in bringing together many different 
stakeholders and coming up with a series of recommendations, as 
you pointed out, I think, are eminently doable, and that I hope 
will advance the ball on cybersecurity.
    So my first question, the report identifies various ways 
that CISA should work with sector-specific agencies to improve 
information sharing and collaboration with private-sector 
entities. So, for example, the report highlights that we need 
more clarity in statute of what is required of SSAs in order to 
ensure that you have the information that you need to do your 
job.
    So, Director Krebs, do you agree that Congress should work 
to lay out the responsibilities of SSAs to both their private-
sector partners and to CISA? That we should research them 
appropriately to perform these functions?
    Well, I will stop there, and then I have other questions.
    Mr. Krebs. So I think this is where we need to strike the 
right balance. It certainly makes a whole lot of sense to me 
that sector-specific agencies--of which I actually own 8 of 
them, between IT, comms, critical manufacturing, chemical, 
nuclear, emergency services--that we develop within those 
sector-specific agencies the specific requirements and 
attributes of those sectors.
    You know, we can handle the core cybersecurity, whether it 
is the business side or the control system side. We can develop 
that core capability. But what I need is the specifics of the 
sector to be layered on top of that understanding, and I can't 
invest in significant treasury, or banking, finance, so that is 
absolutely the responsibilities that we would be looking to be 
clearly articulated.
    Mr. Langevin. Can you talk about how CISA plans to work 
toward implementing the recommendations, if you would?
    Mr. Krebs. Well, I--so, right now, it--now that the report 
is out we have that kind of--the triage list, working through, 
of course, some of the templates that the--Executive Director 
Montgomery has pushed out. So we have got those identified, and 
the sorts of resources that we will need, the things we could 
do now, the things we will have to do down the road, but also 
working with the Commission on what will require legislative 
assistance.
    You know, I think there is a significant amount of the 
recommendations that we can implement right now. But, 
obviously, with some of the requirements for--whether it is IOT 
standards or some of the additional requirements on critical 
infrastructure, that is going to require either Congressional 
action or some sort of regulatory proceeding.
    Mr. Langevin. So, like my other colleagues here today, I 
also want to be on record as saying that I am very concerned 
about the cuts to CISA's budget proposed by the administration.
    Look, the National Risk Management Sector--Center, in 
particular, is a critical component of the Solarium 
Commission's recommendations, especially when it comes to 
syncing up the cyber expertise that CISA has with the sector-
specific enterprise and the SSAs. So do you believe that the 
NRMC will be able to carry out its own mission, in addition to 
the ones recommended by the Solarium report, with the requested 
amount of funding?
    Mr. Krebs. So I think--the way that I see the budget is--
Ranking Member Rogers mentioned, you know, the proposal and the 
actual budgeting piece.
    You know, I am on the formulation and implementation side. 
The way the 2021 budget was developed, given the timing of 
formulation, the timing of the 2020 appropriations, they were 
out of step. So the 2021 budget request, the President's budget 
request, was built on the 2019 enacted. So if you look at it 
in--through that lens, it is actually an increase over the 2019 
enacted.
    Because we didn't receive the fiscal year 2020 
appropriations until late December, by that time the 2021 
President's budget was already baked, from my--from where I 
sit, at least. So it was out of my control, that was already 
cooked. There was not time to kind-of re-peg it against the 
2020.
    So what you see, instead, in the President's budget 
request, are the key areas of focus for the agency. There is 
plenty of room for investment. The National Risk Management 
Center, for instance, has plenty of room for investment to get 
the additional analytic capabilities, we would need, if that is 
what the Congress decides.
    Mr. Langevin. Clearly, CISA is going to need additional 
resources to do the job that we are expecting you to do. I 
appreciate the job that you are doing, as director, and your 
team at CISA. Thank you for that.
    With that, Mr. Chairman, I yield back.
    Mr. Richmond. The gentleman from Rhode Island yields back. 
I now recognize the gentleman from Alabama, Mr. Rogers, for 5 
minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Krebs, you know, it has been reported that there are 
over 300,000 cybersecurity job vacancies in the country at 
present. So we have a real challenge. That is across, you know, 
the private and public sectors. How many job vacancies do you 
have that you are struggling to fill?
    Mr. Krebs. At the moment we have got about 655 vacancies 
within the agency, about 151 of those are cybersecurity. I have 
about a 95 percent retention rate on the cybersecurity side, 
which is good, and it is improving.
    What we are doing right now, particularly as we continue to 
hire against the fiscal year 2020 funding--in that set, again, 
peg the FTE rate higher. We are trying to look at hiring as a--
from a systematic approach. So left to right, from--you know, 
identifying the job to actually getting a person in a seat with 
the PIV card and a machine, ready to roll. That requires a 
whole host of partners within CISA and without. So, really 
trying to flush out who owns these things, what are the 
bottlenecks, and then what is the plan we are putting against 
it.
    So a couple examples of choke points or bottlenecks that we 
are seeing, it is the hiring manager develops a position 
description. The problem with the hiring manager doing that is 
a hiring manager is a collateral job. It is an other-duties-as-
assigned. So I have someone who is a program manager and an 
engineer, but also has to do a hiring manager job.
    So we are saying, OK, maybe we relieve them of the hiring 
manager responsibility and have full-time hiring managers 
that--their job, at least on a 6-month, maybe cyclical basis, 
would be to just work position descriptions, just work the 
interview process. We think that can streamline and make a more 
efficient process.
    We also have to look at----
    Mr. Rogers. Have you started that?
    Mr. Krebs. Yes, sir. We did. We--a couple of weeks ago we 
launched a task force to focus just on this sort of thing.
    Mr. Rogers. I am sorry to interrupt you.
    Mr. Krebs. So we are going to be plowing through those PDs 
and the selections, which then gets us to the subsequent piece, 
the security.
    For instance, in the past we have looked at cybersecurity 
jobs as requiring top secret SCI clearances. We are challenging 
those assumptions. You know what? I might not need out in the 
field anybody that has a TS. Secret might be fine. So let's 
take a stab at that. If they need TS down the road, then we can 
put them in for that process. The TS is a--the top secret 
clearance is a significant additional time lag in hiring. So we 
are going to change the way we write PDs. Plus there are other 
policy and process issues.
    Again, some of that security clearance review I have to 
outsource to other parts of the Department, so let's see what 
we can do there.
    But also, like, just getting smarter about how we write 
position descriptions. So working in part with the Aspen Group 
and the--their cybersecurity working group, they issued a 
series of recommendations on how to improve cybersecurity 
hiring.
    One of them that we have adopted is how do you--don't over-
spec the position description. So you are trying to hire a 
job--someone into a job. Don't say you have got to be able to 
do 15 things. Just tell them the 2 or 3 things you need them to 
do. So those are the sorts of things.
    We are just trying to bring a little bit of reality into 
the hiring process, and we have already seen a 12 percent 
decrease in our time to hire. So, in some cases, it is--that is 
only--you know, that goes from, like, 260 days to maybe 240 
days, just trying to improve these numbers a little bit, and 
incrementally do it. But we think we have got processes in 
place. We will be able to dramatically cut the hiring process.
    Mr. Rogers. Do you feel--have you found that your salary 
and benefit packages is adequate to compete for talent?
    Mr. Krebs. I--so thank you for bringing that up, because I 
neglected to mention it.
    We have been provided a series of different retention and 
hiring incentives that we can use, including tuition 
reimbursement, up to 25 percent hiring--or, rather, retention 
bonus. So I can actually, I think, generally, compete in the 
market. Certainly not on the top, top, top, top end, but we can 
provide--between mission and pay and just quality of life, we 
think we can do a pretty good job here.
    So it is just about getting out there, and making sure we 
are using smarter, you know, platforms, and really hitting some 
of the on-line--like, LinkedIn, and things like that, 
aggressively recruiting across those platforms.
    Mr. Rogers. Have you found that you have been able to bring 
in many CISA employees through the Scholarship for Service 
program?
    Mr. Krebs. We have used that, and that is one of the key 
partners that we bring folks in, particularly at the--kind-of 
the lower and mid-level of the GS structure, not at the higher 
GS-15. But we need to take greater advantage of that, that is 
the way I see it.
    For us, it is somebody is doing recruiting for us, and we 
have just got to go kind-of collect resumes. We can make on-
the-spot--at the SFS hiring fairs we can make on-the-spot 
offers and immediately get the process started, and that shaves 
2 weeks off.
    Mr. Rogers. I would love to take the lead on helping you 
with that particular issue. I think the Scholarship for Service 
program is a very under-used tool. So if you will get with me, 
let me know whatever you need, I will take the ball and run 
with that.
    Thank you, Mr. Chairman.
    Mr. Krebs. Thank you.
    Mr. Richmond. The gentleman from Alabama yields back. I now 
recognize the gentlewoman from New York, Miss Rice, for 5 
minutes.
    Miss Rice. Thank you so much, Mr. Chairman.
    Director Krebs, as you responded in--as you said in 
response to a question by Mr. Langevin, it is clear that it is 
going to be up to Congress to translate many of the Cyberspace 
Solarium Commission's recommendations into legislation, or 
legislative proposals. But I think it is worth noting that the 
fiscal year 2021 budget request would not advance the 
Solarium's vision for CISA, which I think is problematic, to 
say the least.
    But my question is how is--how do you plan to invest in 5G 
security and resilience, supply chain security, and election 
security with less money?
    Mr. Krebs. So if you look at the past 3 years, we started 
from scratch. I will use election security as an example. We 
started from scratch. We had zero election-specific money. Over 
the past 3 years Congress has invested about $102 million in 
our election security effort. Last year was about--it was about 
$43 million. The fiscal year 2020 budget--2021 budget has, I 
think it is, about $30.5 pegged against election security.
    What we are using that, those funds, to do is, yes, provide 
specific election capabilities, but also invest in broader 
capacity and capabilities within the agency on vulnerability 
management, threat hunting, any of those sorts of 
vulnerabilities--scanning capabilities, remote penetration 
testing. So we will continue to do that. The more we put in 
there, it will directly benefit elections, but also the broader 
critical infrastructure community.
    But again, with more I can always do more. So, again, 
whatever you will, of course, appropriate, we will be able to 
implement and execute against.
    Miss Rice. So I think one of the problems with the election 
interference is--putting aside what the intent is, putting 
aside what countries like Russia and China--what specific 
candidate they are trying to help, put that determination 
aside. When you look at just the overwhelming amount of 
disinformation that is out there, how do you address that 
issue?
    So if a specific campaign sees this just repeated 
disinformation--that, obviously, we will just assume is 
negative--against one particular person, what do you suggest a 
campaign--and whether it is a Republican or a Democratic 
campaign, because disinformation is at the heart of what is 
happening here, and it--you know, the attempt to sway the 
opinions of everyday Americans.
    So how would you suggest that people and campaigns handle 
that?
    Mr. Krebs. So, stepping back a little bit in the broader 
disinformation issue, and countering disinformation, we tend to 
view it as a supply and demand problem. On the supply side, you 
actually--you have these--or the influence operators, whether 
it is Russia, Iran, China, whomever it is, doesn't matter, 
pushing that information. Right?
    So there are capabilities across the intelligence 
community, the law enforcement community, within the private 
sector on the social media platforms that can disrupt that 
supply, but do it in a content-neutral way that is more about 
tagging actors, sharing those, illuminating campaigns.
    You know, I got to give a lot of credit to the social media 
organizations for--you know, compared to 2016, we are light 
years ahead of where we were. Is there room to improve? 
Absolutely. There is more that can be done, particularly with 
encouragement, I think, from the Congress.
    But there is another side to all of this.
    So, specific to your question, if you see it, report, you 
know, send it in to the FBI, send it to the social media 
platforms. They have dedicated teams that are monitoring, but 
also have intake mechanisms so that they can identify and then 
take down these campaigns.
    But the more important aspect of this--so we are--this is a 
Whack-a-Mole game if we are always chasing the latest disinfo 
campaign. What we have got to do is focus also on the demand 
side. The demand side is the American people. So how do we 
create a more discerning public, a more informed, educated 
public on the things that are happening across the news and the 
media and the social media platforms they see?
    So that is what we have put a lot of effort into, and 
that--you know, I think probably the most known, well-known 
thing we have done there is the War on Pineapple, which was 
last year we launched a program that distilled down how 
disinformation operations work, how the Russians do it, but we 
did it not in a way that it is Russia, it is whether you like 
pineapple on your pizza or not. So it is a very kind of non-
confrontational issue, but it is educational. We got 
Secretaries of State, election directors involved, pitted on 
either side. Even the--I think the armed forces of Canada got 
involved in the whole thing, so we had a foreign influence 
operator in here, but it doesn't matter.
    [Laughter.]
    Mr. Krebs. Anyway, it was educational. It actually took 
off. People started to get it.
    So there is a civic education opportunity in front of us, 
and those are the things we are looking to do with the social 
media platforms, as well as academia and some of the other 
nonprofits that are involved here.
    Miss Rice. I would like to follow up with you on that. 
Thank you very much.
    I yield back.
    Mr. Richmond. The gentlelady from New York yields back. I 
now recognize the gentleman from North Carolina, Mr. Walker, 
for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Mr. Hentz, is that the correct--so yes. Since the military 
doctrines of Russia, China, North Korea, and Iran include EMPs, 
electromagnetic pulse attacks, with their cyber strategies, and 
that our civilian infrastructure is highly vulnerable to EMPs, 
how is DHS addressing the existential threat of an EMP attack 
so that Americans can be assured they are safe?
    Mr. Hentz. Thank you for the question. So what we have 
done, specifically, is formed a very tight relationship with 
CISA, who, from the Department, owns the mission space, per the 
18 NDA, I believe it was, to ensure that there is a cooperative 
public-private partnership between their organization and 
critical infrastructure owner-operators.
    What we have done, specifically, is a T&E assessment to 
help with a better understanding of how one might go about 
shielding their critical infrastructure, how to better 
obfuscate critical elements that might be subject to EMP, GMD, 
and other types of solutions, and then working with CISA, 
propagate that information throughout the mission spaces 
through which they operate to ensure that everyone has good 
hygiene practices.
    But at the end of the day, what we are really driven by is 
a demand signal from CISA and its mission partners in the field 
to help inform what our R&D should be.
    Mr. Walker. Thank you for that answer.
    Director Krebs, CISA has started their team closely 
monitoring the coronavirus, and is working with critical 
infrastructure partners to prepare for possible disruptions 
that--they may stem from wide-spread illnesses. How is the 
agency ensuring the disruptions are minimized to critical 
infrastructure sectors such as the emergency services sector, 
or the nuclear reactors, materials, and waste sector, both of 
which DHS has designated as the sector-specific agency in the 
event of a large outbreak?
    Can you address some of that?
    Mr. Krebs. Yes, sir. So we established within CISA about--
it was early February we stood up an enhanced coordination 
cell, and designated a mission manager. So that really was--is 
the nexus of all COVID-related activity within the agency.
    Under that we have got a series of lines of effort. The 
first line of effort is physical protective measures and 
recommendations. That typically takes CDC guidance, and then 
applies sector-specific guidance on top. That looks at 
different business models: ``If you are heavy into public 
engagement, like a hotel or a sporting venue, here are the 
things you should be doing.'' But it also looks at industrial 
environments, including pipelines, chemical, electricity.
    We also have a line of effort focused on cybersecurity. So, 
as organizations move to telework, what are the cybersecurity 
considerations? Because the attack profile changes. You might 
be using more VPNs, so make sure you have got your Citrix and 
other VPNs patched, things like that.
    But also targeting and looking into the phishing campaigns 
that we have already seen the bad actors using as an incentive 
or enticement to get people to click on links.
    We are also looking at these continuity of the economy 
aspects, as I already talked about, those 4 elements of how a 
function may be degraded.
    Then, looking deeply at disinformation, as well, so working 
with our intelligence community partners of how is disinfo 
playing out across COVID, and this is important in the election 
space. Particularly, we had a call last week with about 600 
State and local election officials about, you know, what are 
the hygiene practices they can take, but also what are we 
seeing in the disinfo space, and how can we dispel any sort of 
coronavirus or COVID impacts on voter turnout, for instance.
    You are already starting to see some of those discussions 
take place into action. Earlier this week Secretary Frank 
LaRose from Ohio announced that any voting precincts in nursing 
homes or assisted living communities will be moved out----
    Mr. Walker. OK.
    Mr. Krebs [continuing]. They will not be taking place. So 
we think that is a great outcome that we need to--we want to 
continue pushing that information----
    Mr. Walker. A very thorough answer. My follow-up, would a 
decrease in funding for fiscal year 2021 threaten the 
functionality or security of any of these components that you 
mentioned if an outbreak were to occur?
    Mr. Krebs. So I think, based on the 2020 budget, we have 
been able to build capacity. The 2021 budget will allow us to 
continue that activity. I think what you would see is 
enhancements wouldn't be able to happen, necessarily. That is 
one thing that we are looking at right now on COVID with the 
National Risk Management Center, in particular, what additional 
analytic capability do we need to bring in right now to do 
prospective analysis. That, of course, is going to continue, 
likely, past the fiscal year break.
    Mr. Walker. So security, not necessarily compromised, but 
enhancements moving forward would be inhibited. Is that fair?
    Mr. Krebs. I think steady--it is--you know, we can maintain 
what we have, but we see the threat landscape shifting, and so, 
you know, the ability to further invest in capabilities, I 
think, would benefit.
    Mr. Walker. Thank you, Mr. Chairman. I yield back.
    Mr. Richmond. Thank you, the gentleman from North Carolina 
yields back. I now recognize the gentlewoman from Michigan, Ms. 
Slotkin, for 5 minutes.
    Ms. Slotkin. Great. Thanks to both of you for being here.
    Mr. Hentz, I am interested in this idea of how the 
Department of Homeland Security can move new ideas, 
particularly on the issue of border security, new technology 
that might help us secure our borders more efficiently. How do 
you take that right now, from pilot project to actual scaled 
use?
    It is a problem we have in the Defense Department. I am on 
the Armed Services Committee. I have a bill that is trying to 
bridge this gap. But can you explain to us, and potentially 
explain some of the gaps we have in going from great idea that 
maybe the private sector has to a scalable, usable piece of 
technology?
    Mr. Hentz. Sure. So thank you for the question.
    The first thing that we try to do is get a really refined 
understanding of what the operational gap is from that 
component.
    So, in this case, let's say, we are working with CBP. We 
established them as a board of director-type member for our 
innovation approach. What we have done is stood up capabilities 
such as the Silicon Valley Innovation Program--it is more so 
about the idea of finding unique innovation in industry--and we 
paired those innovators, those non-traditional performers, with 
those operators.
    Once they completely understand the use case, what we do is 
almost like a shark tank-like type of approach to determining 
whether or not their solution is actually, No. 1, usable and 
effective in an operational environment, and then, No. 2, does 
it then scale?
    Now, where the deficiency is, such--I think you are going 
for, is that we, as an S&T organization, we don't have 
acquisition authority. So, while we may go off and find these 
unique end-state types of solutions that are coming out of the 
emerging market, it is still incumbent upon the operator, like 
a CBP or a CISA, to program for those acquisitions. Because we 
don't have that authority, we don't then, by definition, go off 
and buy that solution for that operational component.
    So I think that that is one of the main----
    Ms. Slotkin. Yes.
    Mr. Hentz [continuing]. Deterrence for quick adaptation.
    The other is more predictability around other transactions 
authorities. By us using other transactions authorities, or the 
operators using 880 authority, that would also give the 
Department a head start, a jump, if you will, where it is not a 
big, traditional acquisition.
    Ms. Slotkin. Yes. So I am working on a bill with some of my 
colleagues across the aisle called the Intel at Our Borders 
Act, which basically requires the Department to provide a 
comprehensive strategy on how to integrate some of these new, 
emerging technologies. It is actually something CBP, our local 
folks in Michigan, the Northern Border, have been super excited 
about. They have helped us draft the bill.
    So more to follow, but we would love any notes for the 
record on what would be helpful for you to actually make this 
more effective.
    Director Krebs, I just want to thank you for your approach 
to this committee. I know it is a strange thing for both of you 
to be up here sort-of defending your budget which cuts your 
budget, but knowing that we will put money back in your budget. 
That is a complicated thing to do, and I want to thank you for 
having your--I think it is--he is your assistant director for 
cybersecurity--Bryan Ware came up and did a briefing, sort of a 
get-to-know-you thing, and that stuff makes such a difference 
when you are talking to a committee that is looking to help 
your department. So thank you for doing that.
    Can you tell me--we--I constantly do these events with my 
local governments, who feel pretty wholly unprepared to manage 
cybersecurity on their own. They just--some of them are working 
part-time, this is not their primary job. They are trying to do 
their best. I know that we have put in--again, like, this 
committee has been great about talking about building up 
resources for our local officials to provide for themselves.
    But in your perfect world, you know, it seems like we can't 
keep doing this, where we are expecting really small 
communities to defend themselves. They hold the private data of 
our residents. So what has to happen? Where are we going? Help 
us forecast how we are going to better protect ourselves, since 
our local communities are on the front lines.
    Mr. Krebs. So it is going to require--and, yes, I think 
about this almost nonstop, and nowhere is this more acute than 
in election security, of course, with 8,800 jurisdictions 
across the country that are managing, in a lot of cases, 
significantly outdated systems. They are just operating from a 
lack of funding.
    So I think there are a couple of challenges here.
    First is just the governance aspects, when you have just 
this diversity of ways that States manage, or are able to 
manage, based on home rule or otherwise, requirements across 
distributed counties and jurisdictions.
    There is also a funding issue, of course. The States just 
have significantly different funding profiles than the Federal 
Government that can run a deficit.
    Then, just the availability to services. There is not a lot 
of acquisition leverage or procurement leverage when you are 
talking about a local jurisdiction.
    So, at the governance piece, we are continuing to just 
raise awareness with State governments, with State 
legislatures. You know, my theory is that awareness leads to 
investment, which builds capabilities. We are going to have to 
continue beating the drum on cybersecurity awareness. That is, 
I know, sometimes a shocking thing to hear, that people still 
need to be made aware of cyber risks, but it just--it remains 
the case. We need the leadership to understand this.
    The second thing on the funding, understanding that there 
are a couple different bills floating around on providing 
grants to State and locals, I think those are certainly useful 
things we need to work through, and we need to get to a spot 
where, like FEMA has, the Disaster Relief Fund, you know, what 
does a cyber equivalent look like? But, at the same time, we 
are not sitting back and waiting. We--in the recent FEMA/
Homeland Security grant program, which I am sure you all heard 
from your chiefs of police and emergency management, we did put 
some requirements in there for cybersecurity and election 
security investments, which, over the last 7, 8, probably 10 
years, has been a National preparedness report, key area of 
lack of preparation.
    Then, last, what more can I do in the Federal Government 
space to provide additional services out to Federal partners? 
So the continuous diagnostics and mitigation platform, for 
instance, is something that we can open up. It is on the GSA 
schedule, we can do that. Some States don't have the ability to 
buy from GSA, so we need to change that behavior, but also make 
things affordable.
    The DOTGOV Act, which allows for the actual .gov domains to 
open up. There is a $400 requirement. Four hundred dollars in 
local jurisdictions in Michigan or elsewhere, that is a 
difference-maker. That can be, you know, somebody's bonus. So 
these are the things we need to work through.
    Then last, we are making--we are working through standing 
up a protective DNS service for the Federal Government. How do 
we open that recursive protective DNS program or platform for 
State and locals, as well? I see centralization and opening up 
services like that as the key to changing risk outcomes for 
State and local partners.
    Mr. Richmond. The time of the gentlelady from Michigan is 
expired. I now recognize the gentlelady from Illinois, Ms. 
Underwood, for 5 minutes.
    Ms. Underwood. Thank you, Mr. Chairman.
    Several weeks ago a school district that serves my 
community in Crystal Lake, Illinois was hit with a ransomware 
attack. The school officials did pretty much everything right. 
They took the servers off-line, they protected sensitive data, 
they avoided major disruptions in student learning, they 
planned ahead. They even had a cyber insurance policy. But it 
still took over a month to get the student computers back on-
line, and the attack cost over $800,000, not all of which is 
covered by even good insurance.
    The fact is that ransomware attacks our business, and that 
business is good. While both CISA and Congress have made 
important steps, they aren't enough for schools like those in 
Crystal Lake.
    So, Director Krebs, can you tell us more about the profile 
of these kinds of attackers, and are they nation-state actors 
or affiliates, organized cyber criminals, lone actors? Can you 
just say something about the----
    Mr. Krebs. Yes, ma'am. I am smiling because your 
``ransomware is business, and business is good'' line, I have 
used that before, and it is absolutely what is going on.
    Ms. Underwood. Yes, sir.
    Mr. Krebs. So the way we look at ransomware right now is 
there are kind-of 3 things that are going to have to change.
    First is we have to continue investing in the defensive 
side. Yes, they did all the right things, but I am sure that, 
when you go and do the post-mortem, there were elements that 
could have been implemented to protect. You know, really, what 
we are finding is just some simple measures like multi-factor 
authentication, appropriate Windows administration, lease 
privilege, things like that can just stop it from happening, 
and then go to the next partner. The--or the target.
    The second thing we have to do is disrupt the economic 
model, disrupt the business model.
    Ms. Underwood. Right.
    Mr. Krebs. It--like you said, business is good. That is why 
it continues. So how do we disrupt that? Are there things we 
can do, the Congress can do to target the ransomware actors, to 
take a look at actually paying out ransomware, whether that is 
a public policy issue or not? I think that is a good question 
that we need to take a hard look at.
    Then the third thing we have to do is what more can the 
Federal Government do, not just from a defensive side, but from 
more of an aggressive, almost defend-forward perspective, do to 
disrupt these behaviors? You know, we know where these guys 
operate. They are not in the United States, they are in Russia 
and elsewhere. What can we do to put additional pressure on 
them from the intelligence community and from the Department of 
Defense and----
    Ms. Underwood. But would you characterize the actors--how 
would you characterize the attackers themselves?
    Mr. Krebs. The actors themselves are criminals.
    Ms. Underwood. OK.
    Mr. Krebs. They are straight-up criminals. Not necessarily, 
you know, in this case--you know, I mentioned Russia, so it is 
not like they are necessarily FSB, but they are cyber criminals 
operating in the sovereign space of some of our adversaries in 
some cases.
    Ms. Underwood. Yes. So I thank you for outlining those next 
steps that we can all take to protect our communities and 
critical assets that we all have within our own organizations 
from ransomware attacks.
    I do think that there is more room for leadership from CISA 
and from law enforcement here.
    Mr. Krebs. Yes, ma'am.
    Ms. Underwood. My constituents weren't sure, for example, 
whether to leave the evidence of the attack intact, or to try 
to get the operation up and running quickly to serve their 
students.
    So, if you can just offer, you know, advice for what to do 
for communities that are experiencing this type of attack----
    Mr. Krebs. So we have issued a significant amount of 
guidance and best practices, not complicated, 80-page guidance 
stuff, but 1-page, 2-page sort-of guidance for our partners.
    One thing that I don't think we have explored quite enough 
is working with you and Congress, understanding the influence 
you have back home----
    Ms. Underwood. Right.
    Mr. Krebs [continuing]. With your partners in the school 
districts and the public health community. Please encourage 
them to work with us. There are things that we could do to help 
them to make sure that they don't have that bad day.
    Ms. Underwood. Right.
    Mr. Krebs. Because $800,000 to a small community in your 
jurisdiction----
    Ms. Underwood. It is significant.
    Mr. Krebs. It is. That can be back-breaking in some cases--
--
    Ms. Underwood. So do you think that there are technical 
standards that hardware and software products should meet in 
order to limit their vulnerability to ransomware attacks?
    Mr. Krebs. Again, a lot of this ransomware is just a matter 
of somebody clicking on a link. It is often delivered by spear 
phishing. In some cases it is delivered by a remote desktop 
protocol, ports being open, things like that. So this is not 
necessarily a hard sec or software sec issue. It is 
configuration. It is Windows administration, Windows 
administration, Windows administration.
    Ms. Underwood. Right.
    Mr. Krebs. Those are the sorts of things that we need to 
invest in. It is just awareness, and how can we just configure 
from the get-go better postures.
    Ms. Underwood. OK. So Mr. Cuccinelli, your colleague, is 
going to be coming to testify before the larger committee this 
afternoon, and he has said that CISA has been assessing 
``issues of concern,'' potential impacts to infrastructure from 
coronavirus in the event of significant community spread in the 
United States. Those are clips of his quotes.
    Significant community spread is already happening. So, 
Director Krebs, can you just talk about what impacts to 
critical infrastructure that you are seeing, and what should 
our States and localities expect to come in the weeks and 
months?
    Mr. Krebs. Yes, ma'am. So we are trying to break it out 
from the tactical today, and the PPE, or the personal 
protective equipment----
    Ms. Underwood. Yes.
    Mr. Krebs [continuing]. That is out there into the more 
strategic, longer-term analysis. I talked about it a little bit 
earlier, but through our National Risk Management Center, and 
the National critical functions approach, what we are trying to 
do is understand what those key elements of degradation might 
be.
    We have identified 4 key aspects. The first is disruption 
of a commodity, of a key commodity, like a widget in a--that 
would go into a car, some sort of device that would go into a 
car that would prevent it from rolling off the line, for 
instance.
    The second is workforce disruption. So whether it is 
absenteeism, sick-outs, or other sorts of issues, particularly 
across different business models.
    The third and fourth are more about the demand. So, in some 
cases, like N95 you would have an increase of demand, where you 
can't meet it.
    Ms. Underwood. Right.
    Mr. Krebs. Then the other, the fourth element, is a 
cratering of demand. That could be, in some cases, 
transportation. So we try to pull those all together.
    We are seeing automotive, we are seeing IT and comms 
disruptions, and then also soft goods.
    Ms. Underwood. Well, as you are publishing documents to the 
communities about those, can you keep our committee informed? 
We appreciate it.
    Thank you, and I yield back.
    Mr. Richmond. The time of the gentlelady is expired. I want 
to thank the witnesses for their valuable testimony, and the 
Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee records shall be kept open 
for 10 days.
    Hearing no further business, the committee is adjourned.
    [Whereupon, at 12:13 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Hon. Sheila Jackson Lee for Christopher C. Krebs
    Question 1. Director Krebs, I represent Houston, Texas. It is one 
of the largest metropolitan cities in the country, hosts one of the 
busiest international airports and is also home to one of the largest 
export hubs in America. As of yesterday, there were 13 cases of COVID-
19 in Texas.
    First, what are you doing, and what is the Government doing, to 
spread true information about the virus and its potential impacts?
    Answer. Response was not received at the time of publication.
    Question 2. In last week's CISA Insights document, you identified 4 
risk management strategies related to supply chain security and the 
Coronavirus (COVID-19).
    For the record, can you tell me what advice CISA is giving to help 
States and industry prepare and be resilient against a COVID-19 
pandemic?
    Answer. Response was not received at the time of publication.
    Question 3. How is the Department of Homeland Security preparing 
State and local election administrators for the November Election given 
Coronavirus will still be with us until there is a vaccine?
    Answer. Response was not received at the time of publication.

                                 [all]
</pre></body></html>
